No.

 

 

IN THE

Supreme Court of the Anited States

GREGORY HUBBARD, Petitioner,
v.

STATE OF ALABAMA, Respondent.

Petition for Writ of Certiorari to
the Supreme Court of Alabama

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,950 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 13, 2021.

Colin Casey We

Wilson-Epes Printing Co., Inc.
